POSTAL REGULATORY COMMISSION
  OFFICE OF INSPECTOR GENERAL




  SEMIANNUAL REPORT TO CONGRESS

    April 1, 2010 through September 30, 2010
                                 TABLE OF CONTENTS



                                                                                                PAGE

Introduction........................................................................................ 2

Activities of the Office of Inspector General .................................... 3

Inspector General Act Reports .......................................................... 5

Contact Information ........................................................................... 8
INTRODUCTION
    THE POSTAL REGULATORY COMMISSION
         The Postal Regulatory Commission (PRC) is an independent federal agency
         established (as the Postal Rate Commission) by the Postal Reorganization Act of
         1970. From its establishment through the enactment of the Postal Accountability
         and Enhancement Act (PAEA) of 2006, the Commission primarily received
         United States Postal Service proposals for domestic mail rates and classifications,
         presided over litigation regarding those proposals, and recommended rates and
         classifications to the Board of Governors of the United States Postal Service.
         PAEA, which was enacted on December 20, 2006, re-designated the Commission,
         expanded its jurisdiction to include international mail and service standards, and
         charged the Commission with implementing a new system of postal rate
         regulation.

         The PRC consists of five Commissioners who are appointed for six-year terms by
         the President, with the advice and consent of the Senate. No more than three of
         the Commissioners can be members of the same political party. The President
         designates one of the Commissioners to serve as Chairman, and the
         Commissioners, by majority vote, select one Commissioner to serve as Vice
         Chairman.

         During the reporting period, the PRC dealt with three issues of major significance.
         The PRC:

         1. received and began proceedings on a Postal Service request for an Advisory
            Opinion on eliminating Saturday mail delivery;

         2. issued an actuarial report on the Postal Service’s CSRS pension liability; and

         3. conducted proceedings on a Postal Service request to raise rates above the
            statutory cap under exigent circumstances and issued a decision denying the
            request.

THE OFFICE OF INSPECTOR GENERAL
         The Commission established the Office of Inspector General (OIG) on June 15,
         2007 and hired the first Inspector General on June 23, 2007. During the
         reporting period, OIG had two full-time employees—the Inspector General and
         an administrative assistant. OIG was assisted in the conduct of its audits and
         inspections during the reporting period by auditors and evaluators on detail from
         the Postal Service Office of Inspector General and the Treasury Inspector
         General for Tax Administration.



                                          2
ACTIVITIES OF THE OFFICE OF INSPECTOR GENERAL
   AUDITS AND EVALUATIONS
         Under the Inspector General Act of 1978 as amended (IG Act), the Inspector
         General provides policy direction and conducts, supervises and coordinates
         audits relating to programs and operations of the Postal Regulatory Commission.

         During the reporting period, OIG completed one final inspection report, which is
         summarized below:

         FINAL INSPECTION REPORT: POSTAL REGULATORY COMMISSION’S HANDLING
         OF NONPUBLIC INFORMATION

         OIG initiated a review of the PRC’s procedures, policies and systems for
         handling nonpublic information and material received by the PRC, and to
         identify whether or not the controls in place were adequate to safeguard the
         information from possible disclosure or unauthorized access. OIG initiated this
         review in response to requests from both Chairman Edolphus Towns of the U.S.
         House Committee on Oversight and Government Reform and PRC Chairman
         Ruth Goldway. OIG found that the PRC’s controls over nonpublic information
         were adequate in the areas of storage, limiting staff access, and receipt and
         transmission. OIG recommended that the PRC develop formal training on
         security requirements and implement an incident reporting system. PRC
         Management agreed and committed to implementing both recommendations.

         ONGOING AUDITS AND EVALUATIONS

         Two audits or evaluations were ongoing at the close of the reporting period: an
         evaluation of the adequacy of the data the PRC requests and receives in
         performing its oversight mission, requested by Chairman Towns, and an audit of
         PRC’s Information Security policies, including policies related to the prevention
         of unauthorized access to nonpublic information stored electronically.

    INVESTIGATIVE ACTIVITIES
         Under the IG Act, OIG receives and investigates allegations of fraud, waste,
         abuse and misconduct within the PRC’s programs and operations. OIG
         investigations can give rise to administrative, civil and criminal penalties.

         In order to facilitate reporting of allegations, OIG maintains a hotline (see
         “Contacting the Office of Inspector General,” Page 8). During the reporting
         period, OIG received hotline contacts via postal mail, electronic mail and
         telephone. Many were complaints regarding the United States Postal Service,



                                         3
     which OIG forwarded for action.

     OIG did not refer any matters for prosecution during the reporting period.

OTHER ACTIVITIES
     REGULATORY REVIEW

     Under Section 4(a)(2) of the IG Act, OIG reviews drafts of proposed
     Commission rules and regulations. During the reporting period, OIG provided
     informal comments regarding draft Commission regulations and policies,
     including revised policies regarding the handling of nonpublic information.

     LIAISON ACTIVITIES

     The Inspector General is a member of the Council of Inspectors General on
     Integrity and Efficiency (CIGIE), which was established on October 14, 2008,
     pursuant to the Inspector General Reform Act of 2008. During the reporting
     period, the Inspector General attended annual and monthly meetings of CIGIE as
     well as meetings of CIGIE’s Legislation and Information Technology
     Committees.

     PEER REVIEW

     OIG was established in 2007, and at the close of the reporting period had not yet
     conducted or received its first audit peer review. OIG has been informed that
     CIGIE’s audit peer review schedule is currently being revised.




                                     4
                INSPECTOR GENERAL ACT REPORTS

Section 5(a) of the IG Act requires that the following information be included in semiannual
reports.




   REFERENCE                       REPORTING REQUIREMENT                             PAGE


   Section 5(a)(1)   Significant problems, abuses or deficiencies identified          None

   Section 5(a)(2)   Recommendations for corrective action                            None

   Section 5(a)(3)   Open recommendations from previous semiannual reports            None

   Section 5(a)(4)   Matters referred to prosecutors, disposition                     None

   Section 5(a)(5)   Reports of information or assistance unreasonably withheld       None

   Section 5(a)(6)   Listing by subject of audit reports issued                      Page 3

   Section 5(a)(7)   Summary of particularly significant reports                     Page 3

   Section 5(a)(8)   Statistical table—questioned costs                              Table 1

   Section 5(a)(9)   Statistical table—recommendations that funds be put to          Table II
                     better use

  Section 5(a)(10) Audit reports from prior reporting periods for which no            None
                   management decision had been made

  Section 5(a)(11) Significant revised management decisions                           None

  Section 5(a)(12) Significant management decisions with which the IG is in           None
                   disagreement

  Section 5(a)(13) Information under section 05(b) of the FFMIA                       None

  Section 5(a)(14) Peer Review Activity                                              Page 4




                                                5
                                         Table 1

            AUDIT REPORTS WITH QUESTIONED COSTS


                                  Number        Number
                                    of            of          Questioned   Unsupported
                                  Reports   Recommendations     Costs         Costs

A.   For which no management
     decision has been made by       0             0              0             0
     the commencement of the
     reporting period.

                                     0             0              0             0
B.   Which were issued during
     the reporting period.


                Subtotals (A+B)      0             0              0             0


C.   For which a management
     decision was made during        0             0              0             0
     the reporting period.


D.   For which no management
     decision has been made by
                                     0             0              0             0
     the end of the reporting
     period.


E.   For which no management
     decision was made within        0             0              0             0
     six months of issuance.




                                             6
                                          Table II

       AUDIT REPORTS WITH RECOMMENDATIONS THAT
              FUNDS BE PUT TO BETTER USE


                                            Number        Number
                                              of            of          Dollar Value
                                            Reports   Recommendations

A.   For which no management decision
     has been made by the commencement           0           0               0
     of the reporting period.


B.   Which were issued during the
                                                 0           0               0
     reporting period.


                        Subtotals (A+B)          0           0               0


C.   For which a management decision
                                                                             0
     was made during the reporting               0           0
     period.


D.   For which no management decision
     has been made by the end of the             0           0               0
     reporting period.


E.   For which no management decision
     was made within six months of               0           0               0
     issuance.




                                             7
                     CONTACTING THE
               OFFICE OF INSPECTOR GENERAL


In our mission to detect and prevent waste, fraud and abuse and to
promote efficiency and economy at the Postal Regulatory Commission,
the Office of Inspector General relies on information provided by PRC
staff and the general public.

Contact OIG to report illegal or wasteful activities or to receive copies
of OIG reports:

                               Telephone:
                           202-789-6817

                                 E-Mail:
                         prc-ig@prc.gov

                                Internet:
                    http://www.prc.gov/oig

                                  Mail:
                      P.O. Box 50264
                    Washington, DC 20091

 IDENTITIES OF WRITERS AND CALLERS ARE PROTECTED TO THE FULL EXTENT
                             OF THE LAW.




                                     8
